CERTIFICATE OF SERVICE
NO. TBD
Lewis Alan Dugan
Petitioner(s)
v.
The State of Wyoming
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LEWIS
ALAN DUGAN, PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Bridget L. Hill
Attorney General
State Capitol Building, Room 123
200 West 24th Street
Cheyenne, WY 82001-3642
Counsel for the State of Wyoming

Lucas DeDeus

February 4, 2020
SCP Tracking: Dugan-442 East Center Street-Cover White

